Memorandum from the Office of the Inspector General



March 16, 2007

Paul R. LaPointe, WT 3A-K

FINAL REPORT – INSPECTION 2007-504I – REVIEW OF INVENTORY HOUSED AT THE
HARTSVILLE INVESTMENT RECOVERY CENTER (HARTSVILLE)



Attached is the subject final report for your review and action. As discussed with your staff
on March 1, 2007, the subject report is being issued in presentation format. Your staff’s
informal comments to the draft report and management actions planned or taken have been
incorporated in the final report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us of
any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact E. Ashley Haga, Auditor, at (423) 751-3124 or
Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at (423) 751-7821. We
appreciate the courtesy and cooperation received from your staff during this review.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

EAH:BKA
Attachment
cc (Attachment):
     William H. Bonham, WT 3A-K
     Peyton T. Hairston, Jr., WT 7B-K
     Tom D. Kilgore, WT 7B-K
     Richard W. Moore, ET 4C-K
     Andrew B. Neal, HDC 1A-DST
     OIG File No. 2007-504I
 Review of Inventory Housed at the
Hartsville Investment Recovery Center
               (Hartsville)

              2007-504I
            March 16, 2007
Synopsis


     We conducted a review to determine whether Tennessee Valley
     Authority’s (TVA) inventory management system, PassPort, accurately
     reflects the reported $14.3 million in TVA inventory housed at the
     Hartsville facility. We compared:
      – PassPort to inventory on hand and found materials corresponding to 89 of
        the 93 catalog identification numbers (CAT IDs) selected for review, or
        95.7 percent, were (1) housed in the Hartsville location identified by
        PassPort and (2) in agreement with the quantity identified by PassPort.
      – Inventory on hand to PassPort for 38 judgmentally selected CAT IDs and
        found (1) inventory and surplus materials were commingled and (2) many of
        the materials were not reflected accurately in PassPort. However,
        according to Procurement:
              Procurement was waiting on plant direction for the disposition of several materials
               housed at Hartsville, including some of the materials chosen during our review for
               comparison purposes.
              Some materials were directly purchased and never reflected in PassPort.



                                                                                                 2
Objective and Scope


     Objective:
        Determine whether TVA’s inventory management system, PassPort,
         accurately reflects inventory housed at Hartsville.


     Scope:
        TVA equipment, material, and supplies included in TVA inventory that
         have been redeployed/assigned/delivered to Hartsville.* As of
         December 20, 2006, the Hartsville inventory represented about
         $14.3 million.




         *TVA equipment, material, and supplies included in inventory will be referred
          to as materials throughout this report.


                                                                                         3
Background

                In the early 1970s, TVA proposed to construct nuclear
                 plants to generate electricity to meet base load demand
                 forecasts for the 1980s and beyond.
                According to the Environmental Assessment and
                 Finding of No Significant Impact pertaining to TVA’s
                 potential transfer of the land for industrial use:
                  –   TVA planned construction of two nuclear plants with two
                      units each at the Hartsville site in the Tennessee Counties
                      of Smith and Trousdale.
                  –   When the actual power demand in the TVA power
                      distribution area did not increase as rapidly as was
                      forecast, TVA cancelled construction of the plants.
                  –   Plant A construction permit was cancelled August 29, 1984.
                  –   Plant B construction permit was cancelled March 22, 1983.
                In 1996, the Hartsville Nuclear Plant site was renamed
                 the Hartsville Investment Recovery Center. The site
                 remains in use as a center for TVA investment recovery
                 operations and as an inventory warehouse facility.



                                                                                    4
Background (continued)


                            All Procurement warehousing facilities use
                             Hartsville for long- and short-term storage of
                             auxiliary material. The TVA inventory stored at
                             Hartsville is identified in PassPort as “warehouse
                             9” for the applicable facility.

                            Inventory at Hartsville is governed by
                             Procurement Standard Department Procedures,
                             MMS-1.0, Material Receipt/Inspection Material
                             Storage and Handling Material Issue, Control,
                             and Return; and MMS-2.0, TVA Inventory
                             Management Policy.
                             MMS–1.0
                              –   Delineates receipt and inspection requirements.
                              –   Defines the requirement and establishes controls for the
                                  storage, staging, and handling of materials and
                                  equipment.
                             MMS–2.0
                              –   Requires the Site Procurement manager to conduct
                                  cycle counts at all stocking locations.
                              –   Necessitates that cycle inventory results be compiled
                                  and reported on a monthly basis.




                                                                                          5
Methodology


      To achieve our objective, we:
        –   Reviewed Procurement Standard Department Procedures MMS-1.0 and MMS-2.0 to
            identify policies and procedures and key control activities applicable to inventory
            housed at Hartsville.
        –   Interviewed Hartsville and other procurement personnel to gain an understanding of the
            warehousing program at Hartsville.
        –   Randomly selected 93 of the 838 inventory CAT IDs listed in PassPort as stored at
            Hartsville. A walkdown was performed at Hartsville to verify the existence, PassPort
            location, and PassPort quantity for the materials corresponding to the 93 CAT IDs.
                 Attribute statistical sampling methodology was used to select the sample size. The sample size
                  was based on a 3 percent maximum tolerable error rate and 5 percent risk of incorrect
                  acceptance.
                 The inventory value of the 93 CAT IDs was about $2.7 million.
        –   Judgmentally selected 38 CAT IDs corresponding to materials observed at Hartsville
            and determined if the materials were accurately reflected in PassPort. The judgmental
            selection was made during our physical and location walkdown verification testing
            applicable to materials listed in PassPort.

        This inspection was conducted in accordance with the “Quality Standards for Inspections.”




                                                                                                               6
Findings Summary


                   In summary we found that:
                   –   Materials corresponding to 89 of the 93 CAT IDs
                       selected for review, or 95.7 percent, were
                       (1) housed in the Hartsville location identified by
                       PassPort and (2) in agreement with the quantity
                       identified by PassPort.
                   –   Of the 38 CAT IDs corresponding to materials
                       observed at Hartsville for comparison to
                       PassPort: (1) inventory and surplus materials
                       were commingled and (2) many of the materials
                       were not reflected accurately in PassPort.
                       However, Procurement was waiting on plant
                       direction for the disposition of several materials,
                       some of which were directly purchased and
                       never reflected in PassPort.




                                                                         7
Finding 1 – Physical Verification of Hartsville Inventory
Listed in PassPort

     In comparison of PassPort to inventory on hand at Hartsville, we found
     the materials applicable to 89 of the 93 CAT IDs selected for verification
     were (1) housed in the location identified by PassPort and (2) in
     agreement with the quantity identified by PassPort. Information
     pertaining to the four exceptions is as follows:
      Physical Verification Exceptions
            CAT ID--BHW367M showed a quantity of one on hand in PassPort. However, we
             found zero on hand.

               According to Hartsville personnel, the material had been sent to Kingston Fossil
                Plant (KIF) in May 2006 and was still listed in PassPort as being in “Distribution
                Status.” Supporting documentation for the transfer was provided.
               According to Hartsville personnel, an e-mail was subsequently sent to KIF requesting that
                they show the material as “Received Distribution” in PassPort. We verified KIF made the
                requested correction.




                                                                                                            8
Finding 1 – Physical Verification of Hartsville Inventory
Listed in Passport (continued)

             –   CAT ID--CLN112W had a quantity listed in 16 different Hartsville locations in
                 PassPort. For 1 of the locations included in our sample, PassPort listed 90 as the
                 quantity on hand, and we found none.
                       According to Hartsville personnel, these materials were sent to Paradise Fossil Plant (PAF)
                        in December 2006 and were still listed in PassPort as being in “Distribution Status.”
                        Supporting documentation for the transfer was provided.
                       Hartsville personnel advised that an e-mail was subsequently sent to PAF requesting that
                        they show the materials as “Received Distribution” in PassPort. We verified PAF made the
                        requested correction.

          PassPort Location Exceptions
             –   For CAT ID--BMD543G, PassPort showed a quantity of one located at
                 D-B-02-000-001.1 Our walkdown determined the actual material location was
                 D-A-05-202-000.1
                       According to Hartsville personnel, this material was relocated to the D-A-05-202-0001
                        location in November 2006 during an inventory consolidation by the Watts Bar Nuclear
                        Plant.
                       We verified that the location was corrected in PassPort.


      1 Zone-Row-Section-Tier-Bin




                                                                                                                9
Finding 1 – Physical Verification of Hartsville Inventory
Listed in PassPort (continued)

      Quantity Exception*
        – CAT ID--BVG259Q showed a quantity of 170 on hand in PassPort. The test
          count located a quantity of 172 in the warehouse.
                   According to Hartsville personnel, an inventory count was conducted on these
                    materials in September 2006. The box containing these materials was sealed;
                    therefore, Hartsville personnel did not open it. Instead they identified the quantity
                    available by notations on the box and distribution documentation. The seal on the
                    box was broken during our walkdown.
                   We verified that the material quantity was changed to a quantity of 172 in
                    PassPort.




       *We also identified that CAT ID--ADT037C showed a quantity of three on hand in PassPort. The test count located a
        quantity of six in the warehouse. However, according to Hartsville personnel, three are available as inventory and
        three are listed as surplus.


                                                                                                                       10
Finding 2 – Physical Observations Compared to
PassPort Information

     We selected 38 CAT IDs corresponding to materials observed at
     Hartsville and compared our physical observations (i.e., documented
     location and quantity) with information listed in PassPort. In
     comparison of inventory on hand to PassPort, we found:
      – For 8 of the 38 selected CAT IDs, the location and quantity information in
        PassPort agreed with our observation, and the items were classified in
        PassPort as inventory.
      – For 9 of the 38 selected CAT IDs, the location and quantity information in
        Passport agreed with our observation. However, the items were classified
        as surplus material.
      – For 2 of the 38 selected CAT IDs, the location and quantity information in
        PassPort did not reflect the location and quantity identified at the Hartsville
        facility. However, the material was identified as surplus.
      – For 3 of the 38 selected CAT IDs, no location or quantity information was
        found under the CAT ID in PassPort.
      – One CAT ID with a physical count of 5 could not be located in PassPort.
        Therefore, this material could be inventory or surplus.



                                                                                      11
Finding 2 – Physical Observations Compared to
PassPort Information (continued)

      – Four CAT IDs had location information in PassPort that did not reflect the location
        identified at the Hartsville facility. Materials pertaining to 3 of the CAT IDs were
        identified as inventory.
              Hartsville personnel planned to correct location information in PassPort.
      – Eleven CAT IDs had quantities listed in PassPort that did not agree with the physical
        count we performed.
              Of the 11 CAT IDs, 4 pertained to inventory items.
              Hartsville personnel planned to make appropriate PassPort corrections.


     Additional Information
     Procurement personnel informed us that in the fall of 2005 all materials housed
     at Hartsville were accounted for. Hartsville personnel are now required to
     perform inventory cycle counts and report results on a monthly basis. Materials
     warehoused with no CAT ID information or that have not been designated as
     surplus or inventory, have been assigned a sequentially numbered Inventory
     Ticket which identifies key information about the materials. A revision to MMS-
     1.0 requires that items shipped to Hartsville include all necessary information to
     build a CAT ID. Otherwise, the item will be returned.



                                                                                                12
Finding 2 – Physical Observations Compared to
PassPort Information (continued)

      – Hartsville personnel are tracking the Inventory Tickets and have requested
        TVA sites to determine whether the materials need to be placed in inventory
        or surplused and advise Procurement accordingly. Some materials were
        directly purchased and never reflected in PassPort.
      – For materials that need to be placed in inventory and have no CAT ID, sites
        have been requested to provide necessary information so that CAT IDs can
        be generated.


     During our walkdown, we judgmentally selected six Inventory Tickets corresponding to
     materials we observed and found all six tickets identified the materials as belonging to
     Browns Ferry Nuclear Plant (BFN). According to Hartsville personnel, BFN is to identify the
     materials as inventory or surplus and provide information to build CAT IDs, as needed.




                                                                                              13
Recommendations


      We recommend the Senior Vice President, Procurement:
        – Make corrections in PassPort, as necessary, for the discrepancies noted
          during our comparison of inventory on hand to PassPort. Also, ensure that
          PassPort is updated timely to accurately reflect site determinations for the
          (1) remaining Inventory Ticket materials and (2) CAT IDs that have not been
          designated as inventory or surplus material.




                                                                                    14
